APPENDIX

1a
APPENDIX A — MEMORANDUM AND ORDER
OF THE SUPREME COURT OF NEW YORK,
APPELLATE DIVISION, FOURTH DEPARTMENT,
DATED NOVEMBER 20, 2020
SUPREME COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
573
KA 18-01620
PRESENT: WHALEN, P.J., CENTRA, NEMOYER, CURRAN, AND WINSLOW, JJ.
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT
V.

MEMORANDUM AND ORDER

KEITH GRIFFIN, DEFENDANT-APPELLANT.

THE LEGAL AID BUREAU OF BUFFALO, INC., BUFFALO (ERIN A. KULESUS
OF COUNSEL), FOR DEFENDANT-APPELLANT.
JOHN J. FLYNN, DISTRICT ATTORNEY, BUFFALO, (DANIELLE PHILLIPS OF
COUNSEL), FOR RESPONDENT.
Appeal from a judgment of the Erie County Court (Kenneth F. Case, J.), rendered
August 15, 2018. The judgment convicted defendant, upon his plea of guilty, of
criminal possession of a weapon in the second degree.
It is hereby ORDERED that the judgment so appealed from is unanimously
affirmed.
Memorandum: Defendant appeals from a judgment convicting him, upon his plea of
guilty, of criminal possession of a weapon in the second degree (Penal Law § 265.03
[3]). We reject defendant’s contention that County Court erred in refusing to suppress
a handgun and his statements to the police. Contrary to defendant’s contention, the
court properly determined that the police conduct was “justified in its inception and
. . . reasonably related in scope to the circumstances [that] rendered its initiation
permissible” (People v DeBour, 40 NY2d 210, 222 [1976]). The 911 caller who reported
the incident identified herself as the mother of the victim and indicated that the

2a
victim was being subjected to domestic violence by her boyfriend at a specified
address, thereby providing sufficient “self-identifying information” to support the
court’s determination that “the call was not a truly anonymous one, and [that] the
police were justified in acting on such information” (People v Dixon, 289 AD2d
937, 937, 938 [4th Dept 2001], lv denied 98 NY2d 637 [2002]; see also People v Van
Every, 1 AD3d 977, 978 [4th Dept 2003], lv denied 1 NY3d 602 [2004]). The officers’
prior knowledge of the residents of the address given by the 911 caller, specifically
that defendant was the boyfriend of the reported victim and that the pair resided
together at the address given, allowed the officers to identify defendant as the
individual suspected of hitting or “jumping on” the reported victim. Thus, at the time
the officers arrived at the location in response to the dispatch for a “violent domestic,”
they possessed a “reasonable suspicion that [defendant] was involved in a felony or
misdemeanor” (People v Moore, 6 NY3d 496, 499 [2006]).
When the officers arrived at the scene shortly after 11:30 p.m., they observed
defendant standing behind a minivan that was parked in the driveway. Initially,
defendant was visible to the responding officers from about the waist up. Upon seeing
the officers, however, defendant crouched behind the minivan out of the officers’ sight
for a few seconds before standing up again. Based on the totality of the
circumstances—including the short period of time between the 911 call, the dispatch
for a “violent domestic,” and the arrival of the police officers at the reported location;
the presence of defendant and his girlfriend in the driveway at that location; the
responding officers’ knowledge of and familiarity with defendant and his girlfriend
and the fact that the officers had responded to the same location earlier that night;
and defendant’s act of crouching behind the minivan when he saw the officers
arriving—the officer’s verbal command for defendant to emerge from behind the
vehicle and place his hands on the side of a house was a reasonably tailored intrusion
on defendant’s freedom of movement consistent with a level three encounter (see
People v Camber, 167 AD3d 1558, 1558-1559 [4th Dept 2018], lv denied 33 NY3d 946
[2019]; see generally De Bour, 40 NY2d at 223).
Contrary to defendant’s further contention, he was not subjected to an unlawful
arrest when he was handcuffed, pat frisked, and placed in the back of a patrol vehicle.
“It is well established that not every forcible detention constitutes an arrest” (People
v Drake, 93 AD3d 1158, 1159 [4th Dept 2012], lv denied 19 NY3d 1102 [2012]; see
People v Hicks, 68 NY2d 234, 239 [1986]) and that “officers may handcuff a detainee
out of concern for officer safety” (People v Wiggins, 126 AD3d 1369, 1370 [4th Dept
2015]; see People v Allen, 73 NY2d 378, 379-380 [1989]). A “corollary of the statutory
right to temporarily detain for questioning is the authority to frisk if the officer
reasonably suspects that he [or she] is in danger of physical injury by virtue of the
detainee being armed” (De Bour, 40 NY2d at 223; see Wiggins, 126 AD3d at 1370). In
the context of this level three encounter—in which the officers were responding to a
“violent domestic,” defendant and his girlfriend were observed by the responding
officers in proximity to one another in the driveway, it was dark outside, and

3a
defendant crouched behind a van upon seeing the police arrive—the officers had
“reasonable suspicion to believe that defendant posed a threat to their safety” (People
v Mack, 49 AD3d 1291, 1292 [4th Dept 2008], lv denied 10 NY3d 866 [2008]).
Defendant was carrying something over his shoulder, and a pat frisk of his person
was a reasonable measure taken by the officers to ensure that defendant was not
armed with a weapon (see Camber, 167 AD3d at 1559; Mack, 49 AD3d at 1292).
Although the pat frisk of defendant’s person did not reveal any weapons, his brief
detention in the patrol vehicle was justified while the officers spoke to defendant and
his girlfriend separately and investigated the report of domestic violence. Defendant
had a history of fleeing from responding officers, and his brief continued detention
was reasonable inasmuch as the officers “diligently pursued a minimally intrusive
means of investigation likely to confirm or dispel suspicion quickly” (Hicks, 68 NY2d
at 242; see Allen, 73 NY2d at 380) and “ ‘a less intrusive means of fulfilling the police
investigation was not readily apparent’ ” (People v Howard, 129 AD3d 1654, 1656 [4th
Dept 2015], lv denied 27 NY3d 999 [2016]). Under these circumstances, we conclude
that defendant was not under arrest when he was handcuffed, pat frisked, and placed
in the patrol vehicle for an investigatory detention (see People v Pruitt, 158 AD3d
1138, 1139-1140 [4th Dept 2018], lv denied 31 NY3d 1120 [2018]; see also People v
McCoy, 46 AD3d 1348, 1349 [4th Dept 2007], lv denied 10 NY3d 813 [2008]). The
subsequent discovery by an officer of a handgun on the driveway in the same location
where defendant had been observed crouching moments earlier gave the officers
probable cause to believe defendant dropped the gun there when he saw the officers
arrive at the location (see People v Smith, 167 AD3d 1505, 1507-1508 [4th Dept 2018],
lv denied 33 NY3d 954 [2019]).
Contrary to defendant’s further contention, the court properly refused to suppress the
initial statements he made while detained in the patrol vehicle. Although defendant
was at that time in custody for Miranda purposes, “ ‘both the elements of police
“custody” and police “interrogation” must be present before law enforcement officials
constitutionally are obligated to provide the procedural safeguards imposed upon
them by Miranda’ ” (People v Hailey, 153 AD3d 1639, 1640 [4th Dept 2017], lv denied
30 NY3d 1060 [2017], quoting People v Huffman, 41 NY2d 29, 33 [1976]). Here, the
only question asked of defendant prior to the administration of Miranda warnings
was “What is going on?” We conclude that defendant’s statements in reply “were
responses to [a] threshold inquir[y] by the [officer] that [was] intended to ascertain
the nature of the situation during initial investigation of a crime, rather than to elicit
evidence of a crime, and those statements thus were not subject to suppression”
(People v Mitchell, 132 AD3d 1413, 1414 [4th Dept 2015], lv denied 27 NY3d 1072
[2016] [internal quotation marks omitted]; see People v Spirles, 136 AD3d 1315, 1316
[4th Dept 2016], lv denied 27 NY3d 1007 [2016], cert denied — US —, 137 S Ct 298
[2016]; People v Carbonaro, 134 AD3d 1543, 1547 [4th Dept 2015], lv denied 27 NY3d
994 [2016], reconsideration denied 27 NY3d 1149 [2016]). Defendant was advised of

4a
and waived his Miranda rights before he was asked any further questions by either
the officers at the scene or the detective at the police station.
Defendant further contends that the action of the officer in signaling to the other
officers at the scene that he found a handgun in the driveway was the functional
equivalent of interrogation. That contention is not preserved for our review inasmuch
as defendant failed to raise it in his omnibus motion or before the suppression court
(see generally People v White, 128 AD3d 1457, 1459 [4th Dept 2015], lv denied 26
NY3d 1012 [2015]). We decline to exercise our power to review that contention as a
matter of discretion in the interest of justice (see CPL 470.15 [3] [c]).
Defendant also contends that the court erred in refusing to suppress the handgun on
the ground that the officer’s discovery of it was the result of an unlawful warrantless
search of the curtilage of his home. We reject that contention. “Although a private
driveway leading to a home is not outside the area entitled to protection against
unreasonable search and seizure . . . , the key inquiry . . . is whether defendant had
a reasonable expectation of privacy in this area” (People v Smith, 109 AD2d 1096,
1098 [4th Dept 1985]). Here, the record establishes that an officer standing “a couple
feet” away from the minivan parked in defendant’s driveway observed the handgun
on the surface of the driveway below the front bumper of the minivan, which was “the
same location” where defendant had crouched when he first saw the officers arriving.
The driveway was adjacent to defendant’s property on the right and the neighboring
house on the left, and it was connected to the public sidewalk in the front. The rear
of the parked minivan was approximately at the sidewalk, and the front bumper was
approximately “halfway up the driveway” between the two houses. The handgun,
therefore, was approximately a minivan’s length away from the sidewalk, between
defendant’s house and the house next door. The area was used for vehicle parking, it
was not fenced or gated, and there were no signs or notices evidencing any intent to
exclude the public from the area. The area was illuminated by the light from the
streetlights. Thus, we conclude that the record supports the court’s determination
that defendant lacked a reasonable expectation of privacy in the area where the
handgun was observed by the officer (see People v Reed, 115 AD3d 1334, 1337 [4th
Dept 2014], lv denied 23 NY3d 1024 [2014]; People v Versaggi, 296 AD2d 429, 429 [2d
Dept 2002], lv denied 98 NY2d 714 [2002]; People v Warmuth, 187 AD2d 473, 474 [2d
Dept 1992], lv denied 81 NY2d 894 [1993]; cf. Collins v Virginia, — US — , 138 S Ct
1663, 1670-1671 [2018]; United States v Alexander, 888 F3d 628, 633-634 [2d Cir
2018]).
Even assuming, arguendo, that defendant had established standing to challenge the
search of his driveway, the record supports the suppression court’s determination
that the handgun was not unlawfully seized because “[t]he officer who found the
firearm did nothing other than to look at the ground to discover it.” The officer was
lawfully in a position to view the handgun, had lawful access to it, and its
incriminating nature was immediately apparent (see generally People v Brown, 96

5a
NY2d 80, 88-89 [2001]; People v Bishop, 161 AD3d 1547, 1547 [4th Dept 2018], lv
denied 32 NY3d 1002 [2018]).
Inasmuch as there was no unlawful police conduct with respect to defendant’s
investigative detention, his initial statements to the officer, or the seizure of the
handgun, his further contention that his subsequent statements to police should have
been suppressed as tainted by unlawful police conduct is necessarily without merit
(see People v Bethany, 144 AD3d 1666, 1668 [4th Dept 2016], lv denied 29
NY3d 996 [2017], cert denied — US —, 138 S Ct 1571 [2018]).
Entered:

November 20, 2020

Mark W. Bennett, Clerk of the Court

6a
APPENDIX B — ORDER OF THE NEW YORK COURT OF APPEALS
DENYING APPLICATION FOR LEAVE TO APPEAL
TO THE NEW YORK COURT OF APPEALS
DATED JANUARY 26, 2021
State of New York
Court of Appeals
BEFORE: HON. JANET DiFIORE, Chief Judge
THE PEOPLE OF THE STATE OF NEW YORK,
Respondent,

ORDER
DENYING
LEAVE

-againstKEITH GRIFFIN,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal
Procedure Law § 460.20 from an order in the above-captioned case;*
UPON the papers filed and due deliberations, it is
ORDERED that the application is denied.
Dated:

1/26/21
/s/ Janet DiFiore
Chief Judge

* Description of Order: Order of the Appellate Division, Fourth Department,
entered November 20, 2020, affirming a judgment of the County Court, Erie
County, rendered August 15, 2018.

7a
APPENDIX C — DECISION AND ORDER OF
THE COUNTY COURT, IN THE COUNTY OF ERIE, NEW YORK,
DENYING MOTION TO SUPPRESS
DATED MARCH 13, 2018
STATE OF NEW YORK
COUNTY COURT : COUNTY OF ERIE
THE PEOPLE OF THE STATE OF NEW YORK
v.

DECISION AND ORDER
Indictment No. 00192-2017

KEITH GRIFFIN,
Defendant
APPEARANCES:

John J. Flynn, Erie County District Attorney
Danielle E. Phillips, Esq., Assistant District Attorney
Appearing for the People
Leigh E. Anderson, Esq.
Appearing for the Defendant

Case, J.
Defendant moves this Court for an Order suppressing statements and physical
evidence obtained from him. Defendant alleges the tangible evidence the People seek
to introduce at trial was taken from him after he was illegally seized and searched by
law enforcement officers. Defendant further alleges that any statement obtained by
officers subsequent to his seizure should be suppressed arguing that the statements
were a fruit of the Fourth Amendment violation and taken in violation of his Fifth
Amendment rights. This Court held pre-trial hearings on defendant’s motions on
December 19, 2017 and on January 8, 2018.
The People called Buffalo Police Officers Kevin Murphy, Patrick McDonald and
Detective Jerry Giulian at the hearing. The People introduced into evidence a Buffalo
Police Department Miranda warning card, defendant’s type-written statement and
photographs of the weapon and the location where it was recovered.
The defendant called no witnesses.

8a
After considering the testimony elicited at the hearing and the submissions made by
defendant and the People, defendant’s motions are denied in all respects.
FINDINGS OF FACT
On January 12, 2017 at approximately 11:30pm Buffalo Police Officers Kevin Murphy
and Courtney Halligan arrived at 64 Weber in a marked patrol vehicle in response to
a 911 call reporting domestic violence. The officers were acquainted with defendant
who resided at 64 Weber, and Michelle Brown, defendant’s girlfriend. Defendant had
previously fled from the officers. The officers had responded numerous times to 64
Weber; and this was the second report of domestic violence at that address the officers
had responded to that day.
When Officer Murphy arrived, he observed defendant standing in front of a van that
was parked in the driveway. The driveway was directly accessible from the street and
was not enclosed by a fence. When defendant noticed the officers, he crouched down.
When Officer Murphy instructed defendant to approach, defendant stood and
complied. As defendant approached, Officer Murphy instructed him to place his
hands on the house next to 64 Weber. Defendant was wearing a backpack and when
officers tried to remove it from him, defendant removed his hands from the house and
began objecting to the officers’ conduct. Defendant was handcuffed by Officer
McDonald, who had just arrived on scene, and placed in the rear of a patrol vehicle.
After speaking with the other individuals who were at the scene, Officer Murphy
walked to the front of the van where defendant had been standing. Officer Murphy
observed a handgun beneath the van’s front bumper.
Prior to discovery of the handgun, Officer Patrick McDonald asked defendant “What’s
going on?” Defendant responded that he went to the casino and that there had been
an argument with his girlfriend. Defendant, who could see Officer Murphy approach
the area where the firearm was found, then stated “Whatever they found is mine,
they had nothing to do with it.” Officer McDonald stepped away from defendant, and
learned Officer Murphy found a firearm. Officer McDonald photographed the firearm.
Officer McDonald then returned to defendant and advised him of his Miranda
warnings from a card that was provided by the Buffalo Police Department.
After being advised of his Miranda warnings, defendant admitted he knew that
officers recovered a firearm and that the other civilians present at the scene knew
nothing about it. Defendant was transported to a police station house and on the way
admitted to the officers how much he paid for the firearm.
Defendant was interviewed by Detective Jerry Giulian, who re-read defendant his
Miranda warnings. Defendant then provided a three page written statement that he
signed at the bottom of each page.

9a
CONCLUSIONS OF LAW
A.

PHYSICAL EVIDENCE

The Fourth Amendment to the United States Constitution and Article I, Section 12
of the New York State Constitution precludes public officials from conducting
unreasonable searches or seizures upon the general citizenry. In determining
whether or not a search or seizure is unreasonable, the hearing court must weight
the “government’s interest in the detection and apprehension of criminals against the
encroachment involved with respect to an individual’s right to privacy” (People v
Cantor, 36 NY2d 106 [1975]). Any evidence obtained in direct violation of these
protections is inadmissible at trial (Mapp v Ohio, 367 US 643 [1961]). This
“exclusionary rule” likewise applies to evidence indirectly obtained through a
violation of these protections under the “fruit of the poisonous tree” doctrine (Wong
Sun v United States, 371 US 471 [1963]).
There is no legal basis for suppression of tangible evidence unless the accused alleges
facts that, if true, demonstrate standing to challenge the search or seizure (see People
v Rodriguez, 69 NY2d 159 [1987]). Standing exists where a defendant was aggrieved
by the search of a place or object in which he or she had a legitimate expectation of
privacy (see People v Ramirez Portoreal, 88 NY2d 99 [1996]). This burden is satisfied
if the accused subjectively manifested an expectation of privacy with respect to the
location or item searched that society recognizes to be objectively reasonable under
the circumstances (People v Burton, 6 NY3d 584 [2006]).
Here, defendant had not established an expectation of privacy in the area where the
firearm was recovered. Without evidence of an intent to exclude the public (e.g. a
fence, a gate or a posted notice) a driveway leading to a home offers an implied
permission to approach (People v Warmuth, 589 NYS2d 522, 523 [2d Dept 1992]). The
firearm was discovered on the surface of the driveway, beneath the bumper of a
vehicle parked there. The officer who found the firearm did nothing other than to look
at the ground to discover it. The defendant could not have had a legitimate
expectation of privacy with respect to the driveway and therefore lacks standing to
contest the recovery of the firearm.
In the alternative, if defendant placed the firearm under the bumper prior to
approaching the officers, the firearm was abandoned. The question in abandonment
cases is whether the contraband “was revealed as a direct consequence of the illegal
nature of the stop” (People v Cantor, 36 NY2d 106 [1975]) or, on the other hand,
whether the defendant’s decision to relinquish possession was a calculated decision
which attenuated the discovery of the evidence from the illegal police conduct (People
v Boodle, 47 NY2d 398 [1979]; see also People v Ramirez Portoreal, 88 NY2d 99
[1996]).

10a
Here, officers were called to the address by a 911 call reporting domestic violence, the
second such call that evening. When the officers arrived, they asked defendant to
approach. Defendant made a calculated decision to abandon the firearm in an area in
which he had no reasonable expectation of privacy, as opposed to abandoning it due
to the improper conduct of the police (People v Walters, 34 NYS3d 821 [4th Dept
2016]). Therefore, defendant lacks standing to contest the recovery of the firearm.
B.

STATEMENTS

In determining the admissibility of the statements attributed to defendant there are
two questions presented: (1) whether the statements were made in violation of
defendant’s Fifth Amendment rights and (2) whether the statements are the fruit of
an illegal seizure.
The Fifth Amendment to the United States Constitution and Article I, Section 6 of
the New York State Constitution precludes the use of confessions or admissions that
were made involuntarily. The Sixth Amendment to the United States Constitution
prevents the People from introducing an accused’s statement if it was elicited in
violation of his right to consult with counsel. Collectively, these protections are
codified under CPL § 60.45.
Pursuant to the Fifth Amendment, a statement will be deemed “voluntary” when the
People demonstrate beyond a reasonable doubt that defendant’s decision to speak
with law enforcement was the “product of his free and rational choice” (Greenwald v
Wisconsin, 390 US 519 [1968]; People v Huntley, 15 NY2d 72 [1965]). More
particularly, if the statement was the product of custodial interrogation, the People
must establish that defendant was “adequately apprised” of his Fifth and Sixth
Amendment rights, and that he knowingly and voluntarily waived them prior to the
initiation of any questioning (Miranda v Arizona, 384 US 436 [1966]; Moran v
Burbine, 475 US 412 [1986]). However, once a person in custody unequivocally
invokes his Fifth Amendment right to be silent or Sixth Amendment right to counsel,
any statements elicited by the police thereafter may be considered “involuntarily
made” (People v Harris, 57 NY2d 335 [1982]; People v Ferro, 63 NY2d 316 [1984]).
In the instant case, defendant was handcuffed and placed in the rear of a patrol
vehicle prior to any questioning by officers. The only question asked of defendant
prior to the administration of Miranda warnings was “What is going on?” Both the
“elements of police custody and interrogation must be present” before officers are
required to advise suspects of their Miranda warnings (People v Huffman, 390 NYS2d
843, 846 [1976]). Where, as here, the question posed to defendant is designed to clarify
the situation rather than the interrogate, it need no be preceded by Miranda
warnings (People v Carbonaro, 23 NYS3d 525 [4th Dept 2015]; People v Taylor, 869
NYS2d 442 [1st Dept 2008]).

11a
Before defendant was questioned further by officers, he was read Miranda warnings
from a card issued by the Buffalo Police Department. Thereafter, defendant answered
questions and engaged in conversation with officers. Defendant was adequately
apprised of his Miranda warnings while defendant was seated in the police vehicle
and again when he was seated n a detective’s office. In both instances defendant
answered questioned posed to him and knowingly waived his rights (People v
Gonclaves, 732 NYS2d 765 [4th Dept 2001]; People v Spoor, 50 NYS3d 232 [4th Dept
2017]). Defendant’s statements were not obtained in violation of his Fifth
Amendment rights.
Turning the second possible ground for suppression of defendant’s statements
requires a Fourth Amendment analysis of the encounter between defendant and the
officers.
In evaluating police conduct, a court “must determine whether the action taken was
justified in its inception and at every subsequent stage of the encounter” (People v
Nicodemus, 247 AD2d 833 [4th Dept 1998]). In People v DeBour (40 NY2d 210 [1976]),
the Court of Appeals delineated a “four-tiered method for evaluating the propriety of
encounters initiated by police officers in their criminal law enforcement capacity”
(People v Hollman, 79 NY2d 181 [1992]): a level one request for information, the least
intrusive level of police inquiry, is justified by “an objective, credible reason not
necessarily indicative of criminality” (People v Ocasio, 85 NY2d 982 [1995]); level two,
the common law right to inquire, which calls short of forcible seizure, must be based
upon a founded suspicion that criminal activity is afoot (Matter of Steven McC, 304
AD2d 68 [1st Dept 2003], lv denied 100 NY2d 511 [2003]); level three authorizes an
officer to forcibly stop and detain an individual, and requires that the officer possess
a reasonable suspicion that the person has committed, or is about to commit, a crime
(People v Moore, 6 NY3d 496 [2006]); and level four, arrest, which requires probable
cause (id. at 499).
Here, the officers responded to their second report of domestic violence at defendant’s
address that day. The radio dispatch to officers informed them that the victim’s
mother was reporting for her daughter and claiming her boyfriend was hitting her. It
is clear from the officers’ response to dispatch, and the other testimony presented at
the hearing, that the officers knew the parties they were going to encounter prior to
their arrival.
When the officers arrived on scene, they were aware of the previous history between
defendant and his girlfriend, as well as defendant’s history of fleeing responding
officers. The same officers had also responded to defendant’s address earlier that day
and had the information relayed to them from dispatch. Upon their arrival at 64
Weber, the “quantum of knowledge” held by the officers was that a crime had been or
was being committed (People v Howard, 12 NYS3d 708, 710 [4th Dept 2015] internal

12a
quotations omitted). The verbal command for defendant to approach and the
instruction to place his hands on a neighboring house were reasonably tailored
intrusions on defendant’s freedom of movement, consistent with a level three
encounter (People v Zeigler, 877 NYS2d 557 [4th Dept 2009]; Howard, supra).
Further, handcuffing defendant and placing him in the rear of a patrol vehicle did
not ripen his seizure into an arrest (People v Drake, 940 NYS2d 403, 405 [4th Dept
2012]). Thereafter defendant remained handcuffed in the police vehicle for several
minutes, transforming his detention into an arrest. However, the discovery of the
firearm at the scene provided the requisite probable cause for defendant’s arrest. As
such, defendant’s statements were not obtained in violation of his Fourth Amendment
rights.
WHEREFORE, defendant’s motions to suppress his statements and the physical
evidence recovered at the scene are hereby DENIED.
Dated: March 13, 2018
Buffalo, New York
/s/
Hon. Kenneth F. Case, J.C.C.

